No. 20-__

 

IN THE
Supreme Court of the United States

DARRELL HEMPHILL,
Petitioner,
v.
STATE OF NEW YORK,
Respondent.

On Petition for a Writ of Certiorari
to the Court of Appeals of New York

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the foregoing
Petition for a Writ of Certiorari for contains _7&%\“__ words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on November 6, 2020.

Jeffrey L. Fisher
Counsel for Petitioner
